         STATEMENT OF THE HONORABLE ERIC M. THORSON

                             INSPECTOR GENERAL

                      DEPARTMENT OF THE TREASURY

      BEFORE THE HOUSE COMMITTEE ON FINANCIAL SERVICES

        SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 APRIL 28, 2010

                                     2:00 PM


Chairman Moore, Ranking Member Biggert, and Members of the Subcommittee,
thank you for the opportunity to appear before you this afternoon to discuss my
office’s most recent oversight report on the Financial Crimes Enforcement Network
(FinCEN), SAR Data Quality Requires FinCEN’s Continued Attention (OIG-10-030;
issued January 19, 2010).



As requested in your invitation, my testimony will cover the findings in this report,
the key report recommendations, FinCEN’s response, and any prospective views to
improve Suspicious Activity Report (SAR) data quality. As also asked, I will discuss
how the current wave of bank failures requiring material loss reviews have
impacted my office’s ability to conduct oversight of FinCEN’s activities. Lastly, I
will share some observations with respect to FinCEN for the Congress to consider
moving forward.



Treasury Office of Inspector General Overview



Before I discuss our report on SAR data quality, I would like to give some
background about my office. We provide independent audit and investigative
oversight of the programs and operations of the Department of the Treasury as well
as its bureaus, excluding the Internal Revenue Service (IRS) and the Troubled Asset
Relief Program, also known as TARP. In addition to overseeing Treasury’s programs



OIG-CA-10-007                                                           Page 1 of 16
and operations to combat money laundering and terrorist financing, we oversee
Treasury’s financial institution regulators, the Office of the Comptroller of the
Currency (OCC) and Office of Thrift Supervision (OTS), and Treasury programs and
operations to manage federal collections and payments systems, manage and
account for the public debt, maintain government-wide financial accounting
records, manufacture the Nation’s currency and coins, collect revenue on alcohol
and tobacco products and regulate those industries, provide domestic assistance
through the Office of the Fiscal Assistant Secretary and the Community
Development Financial Institutions Fund, and international assistance through
multilateral financial institutions. Our current on-board staffing level is about 145
which breaks down as follows: 100 personnel in the Office of Audit and 20
personnel in the Office of Investigations. The remaining personnel include my
deputy, my legal counsel, our administrative support staff, and me. Our fiscal year
2010 budget appropriation is $29.7 million.



FinCEN’s Role to Combat Financial Crime and Terrorist Financing and the
Importance of SARs to the Effort



Money laundering activities are designed to conceal or disguise the nature, location,
source, ownership, or control of money (currency or currency equivalents such as
checks and electronic transfers) to avoid a transaction reporting requirement under
state or federal law or to disguise the fact that the money was acquired by illegal
means. Terrorist financing provides a person or group the opportunity to collect
funds with the intention of intimidating a population or compelling a government or
international organization to abstain from carrying out an act through the threat of
violence. The funding may be derived from criminal activities or legitimate sources.
Regardless, the techniques to fund terrorism can be similar to those used to launder
money.



Enacted in 1970, the Bank Secrecy Act (BSA)1 requires that financial institutions
maintain records and reports which help identify the source, volume, and

1
  BSA, among other things, authorizes the Secretary of the Treasury to require certain records or
reports where they have a high degree of usefulness in criminal, tax, or regulatory investigations or
proceedings, or in the conduct of intelligence or counterintelligence activities, including analysis, to
protect against international terrorism.


OIG-CA-10-007                                                                            Page 2 of 16
movement of currency and other monetary instruments transmitted into or out of
the United States. This information is passed on to federal officials so that law
enforcement can apprehend criminals by following money trails. BSA contains both
civil and criminal penalties for violations of its reporting requirements.



Treasury is the lead agency responsible for the federal government’s effort to
prevent money laundering and combat terrorist financing in the United States. To
that end, it established FinCEN in 1990 to provide a government-wide multisource
financial intelligence and analysis network. The organization’s operation was
broadened in 1994 to include regulatory responsibilities for administering BSA. In
September 2002, by virtue of the USA PATRIOT Act,2 the Secretary delegated his
authority to implement and administer BSA to FinCEN.3,4 Within Treasury, FinCEN
reports to the Under Secretary for Terrorism and Financial Intelligence.



FinCEN carries out its role by supporting law enforcement, fostering interagency
and global cooperation against domestic and international financial crimes, and
providing U.S. policy makers with strategic analyses of domestic and worldwide
trends and patterns. Furthermore, it collects, analyzes, and shares information with
those law enforcement agencies charged with investigating and prosecuting
crimes. 5 To ensure BSA compliance, FinCEN promulgates regulation and guidance,
and enters into memoranda of understanding (MOU) with federal, state, and other
regulators charged with BSA responsibilities.




2
   The USA PATRIOT Act, among other things, vested the Secretary of the Treasury with additional
regulatory powers to combat corruption of U.S. financial institutions for foreign money laundering
purposes.
3
   The USA PATRIOT Act also established FinCEN as a bureau within the Treasury Department.
4
   Among other things, the Secretary delegated to the FinCEN Director the authority to take all
necessary and appropriate actions to implement and administer Titles I and II of BSA, as amended,
including the promulgation and amendment of regulations and the assessment of penalties.
5
   For example, the Federal Bureau of Investigations, the Drug Enforcement Administration, and
Executive Office for United States Attorneys within the Department of Justice make use of BSA
data when investigating and prosecuting crimes. Additionally, the U.S. Secret Service, Immigration
and Customs Enforcement, and Customs and Border Protection within the Department of Homeland
Security also use BSA data when investigating counterfeiting of U.S. currency, financial fraud,
illegal immigration, smuggling, and money laundering.



OIG-CA-10-007                                                                      Page 3 of 16
Regulations promulgated under BSA require domestic financial institutions (banks,
thrifts, credit unions, money services businesses, and others) to file reports for
cash transactions exceeding $10,000 and to file SARs for transactions exceeding
$5,000 (for money services businesses, the threshold is $2,000) that the
institution knows, suspects, or has reason to suspect is intended to evade any
federal law or regulation, involves illegally obtained funds, or has no business or
apparent lawful purpose. Since 1970, Congress has enacted laws amending BSA
that, among other things, have added criminal and civil sanctions for money
launderers and made terrorist financing an activity punishable under federal money
laundering laws.



FinCEN established the SAR database in 1996 as a single collection point for SARs
to provide law enforcement agencies with critical information for specific criminal
investigations as well to facilitate comprehensive analyses of trends and patterns in
financial activity. FinCEN operates and maintains the SAR database through IRS’s
Enterprise Computing Center in Detroit. Financial institutions and other required
SAR filers can file SARs via paper or electronically through the BSA E-Filing
System. SARs are filed when financial institutions note something suspicious about
a transaction, including a pattern of cash deposits just below the threshold for filing
a Currency Transaction Report (such a pattern is known as “structuring”). SARs are
highly valued by law enforcement for providing potential leads to criminal activity,
including money laundering, terrorist financing, and, lately, possible mortgage
fraud.



Filers of SAR reports are required to provide accurate information and face
penalties if they do not. But this is more than a matter of what is legally required.
As FinCEN puts it:

      “Accurate and complete SARs are critical to the utility of BSA data in
      combating financial crimes, terrorist financing and other illicit activity.
      The value of any SAR filing is impaired when it is not accurate and
      complete. SAR information is a valuable tool for FinCEN, law
      enforcement, regulatory authorities, and intelligence agencies
      (collectively “users”), allowing identification of larger patterns of
      suspicious activity which might not otherwise be detected. When
      combined with other sources, the information generated by SAR filings



OIG-CA-10-007                                                             Page 4 of 16
       plays an important role in identifying illegal activities. However, lack of
       accurate and complete information limits the value of BSA data for
       users.”6



OIG Oversight of Treasury’s Anti-Money Laundering and Combating Terrorist
Financing Mission



I consider oversight of Treasury’s role in preventing money laundering and
combating terrorist financing to be among our highest priority work. To that end,
we first designated this area as one of Treasury’s most significant management
and performance challenges back in 1999 and have continued to do so since that
time.7 We have also conducted a number of audits of this area in the last decade or
so, as our resources have allowed. So, to be clear, we identified Treasury’s role in
preventing money laundering and combating terrorist financing as a significant
management challenge and began conducting audits in this area well before the
horrific events of September 11, 2001.



Unfortunately, much of the information I am presenting to you today is based on
work that my office conducted sometime ago, although I believe the conditions
upon which my office reported remain relevant. The financial crisis that began in
mid-2007 has had a major impact on my office’s ability to do work in this critical
area, which I will discuss in more detail later.



SAR Data Quality Problems Reported by Treasury OIG



As mentioned above, the ability of law enforcement agencies to obtain value from
BSA records and reports is highly dependent on the accuracy and completeness of
the SARs information contained within FinCEN’s database. In that regard, since
1999 we have completed four audits on the accuracy and completeness of SARs in
6
 FinCEN, The SAR Activity Review – Trends, Tips & Issues (Issue 16, Oct. 2009).
7
 The Reports Consolidation Act of 2000 requires that I provide the Treasury Secretary my office’s
annual perspective on the most serious management and performance challenges facing the
Department. That assessment is included in the Department’s annual Agency Financial Report.


OIG-CA-10-007                                                                      Page 5 of 16
FinCEN’s database.8 We completed our latest review in January 2010. We started
this audit in 2007 but were delayed significantly due to our material loss review
workload. Overall, we found that SARs filed during fiscal year 2006, which we
reviewed in their entirety for 17 data fields, often lacked critical information or
included inaccurate data.



Treasury OIG Audits of SAR Data Quality

Our January 2010 audit report was the fourth we have issued on SAR data quality.
The three prior audits found a large percentage of SARs contained missing or
inaccurate data. In the most recent of those prior three audits, an audit completed
in 2005, we reported that SAR filers disregarded SAR form instructions, did not
always understand the violations listed on the SAR form, or were concerned with
personal liability (limiting what they decided to report). We also found that an IRS
contractor made a number of errors in converting data from paper SARs into
electronic files. As a result, there was missing or inaccurate data not being
identified or corrected before or after the SARs were entered into the database. We
concluded that overall system control weaknesses, broad reliance on financial
supervisory regulators to ensure financial institutions’ compliance with SAR filing
requirements, and factors unique to either the type of filer or the filing means
(paper vs electronic) all contributed to the data quality problems. FinCEN concurred
with our findings and recommendations and committed to a corrective action plan,
but stressed that undue focus on data quality could undermine the overall
effectiveness of SAR reporting programs by creating distorted incentives.



The objective of the audit I am discussing today, the one we finished in January
2010, was to evaluate the status of SAR data quality. We reviewed the actions
FinCEN took in response to our 2005 audit recommendations, evaluated the
processes for receiving and processing SARs as they existed when we started the
audit in 2007, and analyzed one year’s worth of SAR data—that being the
approximately 1.1 million SARs filed during fiscal year 2006. The following chart
shows the breakdown of the SARs that we analyzed by filer type.

8
 SAR Date Quality Requires FinCEN’s Continued Attention, OIG-10-30 (Jan. 19, 2010); FinCEN:
Heightened Management Attention Needed Over Longstanding SAR Data Quality Problems, OIG-05-
033 (Mar. 23, 2005); FinCEN: Reliability of Suspicious Activity Reports, OIG-03-035 (Dec. 18,
2002); The Financial Crimes Enforcement Network Suspicious Activity Reporting System, OIG-99-
032 (Jan. 25, 1999).


OIG-CA-10-007                                                                  Page 6 of 16
       Fiscal Year 2006 SARs Filed


                          600,000
                                    563,376
                                                   485,251
                          500,000


                          400,000
          S A R s Filed




                          300,000


                          200,000


                          100,000
                                                                       7,689             6,833
                               0
                                    Depository      MSBs            Securities and   Casinos and Card
                                    Institutions                    Futures Firms         Clubs
                                                           Type of Filer

        Source: Treasury OIG analysis of fiscal year 2006 SAR data.




SAR Date Quality Issues Continued With 2006 Filings

Our audit found that by 2006 SAR data quality had not significantly improved. We
found that 59 percent of the 1.1 million SARs contained omissions or incorrect,
inconsistent, or inappropriate information in 1 or more of 17 data fields which
FinCEN deemed critical to law enforcement. As shown in the table below, SARs
filed by money services businesses had the highest percentage of data quality
problems (88 percent), followed by SARs filed by securities and futures firms (50
percent), casinos and card clubs (49 percent), and depository institutions (34
percent).




OIG-CA-10-007                                                                                       Page 7 of 16
            Fiscal Year 2006 SARs With Data Quality Problems
                                                         Problem              Problem SAR
           Type of Filer                SARs filed         SARs                 percentage
           Depository institution               563,376        191,622              34%
           Money services businesses            485,251        427,934              88%
           Casinos and card clubs                 6,833          3,368              49%
           Securities and futures firms           7,689          3,822              50%
             Total                            1,063,149        626,746              59%
            Source: Treasury OIG analysis of fiscal year 2006 SAR database.



The critical fields that most often had missing or erroneous data were related to the
subject’s taxpayer identification number, address, and name. The manner in which
many SARs were completed suggests that the filers should have used more due
diligence in preparing the submissions. Some of the missing data including the type
of suspicious activity, the institution’s address, or the location of the suspicious
activity, we believe should have been available to the filer.



SAR data quality problems diminish the usefulness of the data for FinCEN, law
enforcement, and other users. Although SARs with missing critical data can still have
value, we believe more complete and accurate SAR submissions would have much
greater value to the users who rely on such information. If I may make an analogy. I
view the information contained in FinCEN’s SAR database as something akin to a
research library. When one does research in such a place, one expects the information
contained within it to be complete and accurate. If users of FinCEN’s SAR database
cannot rely on the information contained within it, that information becomes much
less useful on many levels (from collecting data to build a criminal case to developing
comprehensive analyses of trends and patterns in financial activity).



We also found a disparity among similar institutions in the percentage of SARs with
missing or erroneous data. This disparity raises the question of why certain institutions
are consistently able to submit a higher percentage of complete and accurate SARs
than others. Although depository institutions showed improvement as a whole from
our prior audit -- with the percentage of problem SARs dropping from 56 percent to 34
percent -- data quality problems continued to exist for many, including several large
banks and thrifts with assets of $30 billion or greater. These banks and thrifts had a
higher than average percentage of fields with missing, incomplete, inconsistent, or
inappropriate data. The table below shows the 25 depository institutions where at


OIG-CA-10-007                                                                          Page 8 of 16
least 50 percent of their 2006 SARs had problems. The range of SAR data quality
problems within this group of 25, raises questions about why certain institutions have
a far greater percentage of problems than others.



             Depository Institutions (Top 25) With More Than Half of Their SAR
             Having Missing, Incomplete, Inconsistent or Inappropriate Data
                                                                              Percent of
                                                          SARs with           SARs with
            Depository institution        SARs filed       problems            problems
             A                                1,005            1,005              100
             B                                   660             660              100
             C                                   488             467                96
             D                                   473             440                93
             E                                   591             541                92
             F                                3,033            2,699                89
             IndyMac Bank, FSB                1,723            1,487                86
             G                                1,824            1,381                76
             H                                   712             535                75
             I                                   513             386                75
             J                                3,499            2,600                74
             K                                   661             488                74
             L                                1,074              757                70
             M                                   605             415                69
             N                                   736             476                65
             O                                3,213            2,014                63
             P                                1,982            1,241                63
             Q                                5,056            3,042                60
             R                                1,204              727                60
             S                                   763             450                59
             T                                1,549              875                56
             NetBank FSB                         875             480                55
             U                                2,990            1,592                53
             V                                   715             380                53
             X                                5,238            2,692                51
              Source: Treasury OIG analysis of fiscal year 2006 SAR database. Since
              our audit period, IndyMac Bank FSB and NetBank FSB failed. The names
              of the active depository institutions in the table were provided to FinCEN.



In addition, we found that certain system controls over the loading and processing
of SAR data were weak. The control weaknesses prevented thousands of SARs
with errors and other data quality problems from being identified and corrected
during SAR processing. The control problems included incorrect recording dates;
shifting of data from one field to another, which changed the data’s meaning; and
missing or unassigned document control numbers used to account for the SARs.


OIG-CA-10-007                                                                               Page 9 of 16
These control weaknesses affected the quality of the SAR data and in some cases
the availability of the information to law enforcement. FinCEN management was
aware of some, but not all of the control issues identified by our audit and was
working to correct the deficiencies. IRS officials stated that they were working
with FinCEN to correct the problems related to the processing of BSA data.



During our audit, FinCEN officials stated that our results overstate SAR data quality
problems because filers do not have to fill in SAR fields for which they do not have
the information. In this regard, FinCEN officials stated that SAR form instructions
make it clear that any field for which information is not available should be left
blank. To meet SAR legal requirements, a filer only needs to submit a SAR within
30 days of becoming aware of a suspicious transaction, or 60 days if the filer
needs more time to identify the subject.



According to FinCEN officials, even a SAR with missing critical data has value to
law enforcement. Also, FinCEN expects money services businesses to have more
SARs with missing data than depository institutions because depository institutions
inherently have more data on individuals they do business with than money
services businesses do.



We agree that SARs with missing critical data can have value to law enforcement.
However, we believe more complete and accurate SAR submissions would have
greater value, particularly when the missing data seems like it should have been
readily available to the filer. For example, depository institution filers are supposed
to indicate on the SAR form when the subject data are unavailable and left blank.
However, this box was not checked for 79 percent of SARs with missing critical
subject field data (about 105,000 SARs of about 133,000 SARs filed by depository
institutions). Of these SARs, nearly 3,000 SARs had no subject information at all,
while others contained limited subject data such as a telephone number or a date
of birth. We also noted that even when the box was checked (about 28,000
SARs), indicating that the data was not available, the filer for about 1,600 of these
SARs did include either some or all of the subject data.




OIG-CA-10-007                                                           Page 10 of 16
When we discussed these conditions with FinCEN, we were told that a large
volume of “corrected” SARs are submitted following original submissions that
augment the original SARs, though these SARs are not always identified as
corrected.



FinCEN management further stated that SARs may provide the needed information
in the narrative section of the forms. FinCEN was concerned that our findings
relative to missing data in SAR fields were not adjusted to take narrative
information into consideration. While we appreciate this concern, it was not
practical for us to review the narratives for 1.1 million SARs. It should also be
noted that providing data in the narrative in lieu of recording the information in a
SAR data field is contrary to the instructions for the SAR forms. That said, we also
believe that it would be difficult, time-consuming, and costly, for law enforcement
doing widespread searches of the database for particular fields of data, to hunt for
these data in narratives, on the chance that filers placed important information in
the narratives rather than in the correct data fields.



Recommendations and FinCEN Corrective Actions

To further improve SAR data quality, we recommended in our January 2010 report
that FinCEN: (1) continue and enhance its filer education and outreach programs;
(2) identify and refer to the federal regulators those financial institutions with
significant and recurring SAR quality problems; (3) coordinate with IRS to evaluate,
implement, and improve controls over SAR data; and (4) request IRS to periodically
notify FinCEN of SARs containing significant errors or missing critical data fields.



FinCEN, noting that our findings were based on SAR data filed in fiscal year 2006,
cited a number of completed efforts to improve the quality and integrity of SAR
data. These efforts include enhancing the BSA electronic filing (E-Filing) system and
improving the quality of BSA information through regulatory guidance and
outreach. In this regard, FinCEN stated that it had

•   issued specific guidance to enhance filer education, which it views as an
    ongoing responsibility;




OIG-CA-10-007                                                         Page 11 of 16
•   established an initiative to identify systemic filing errors and in fiscal year 2009
    worked with federal regulators to resolve over 100 such matters;

•   worked with IRS to resolve matters associated with the recording, processing,
    accounting for, and loading of SARs.

By February 2010, FinCEN also planned to have a SAR validation process in place
that identifies all SAR filings with significant errors for its compliance staff to
monitor. According to FinCEN, this action has been taken.



Additionally, FinCEN stated that it plans to launch a BSA information technology
modernization program in fiscal year 2010. This initiative is aimed at modernizing
BSA information management, analysis, and dissemination. Through increased data
integrity and analytical tools, the program is designed to provide hundreds of
federal, state, and local law enforcement agencies and financial industry regulators
better decision-making abilities by increasing the value of BSA information.



We considered FinCEN’s actions, taken and planned, to be responsive to our
recommendations. We have yet to follow-up on those actions, principally because
of our material loss review workload, but plan to do so as resources and priorities
permit. That said, we are aware of FinCEN’s continued outreach efforts to improve
SAR data quality. For example, FinCEN’s most recent SAR Activity Review
(published October 2009) provided suggestions from law enforcement for preparing
more useful SARs as well as a discussion of common errors that should be
avoided. We also believe that the SAR validation process that, according to
FinCEN, was put in place in February of this year to identify SAR filings with
significant errors for compliance monitoring is very important and will be a focus of
the next follow-up by my office.

The Subcommittee’s invitation asked whether I had any additional facts or
recommendations with respect to FinCEN improving its SAR data quality efforts. At
this time I do not--other than to say that this is an area that will require continued
vigilance on the part of FinCEN.




OIG-CA-10-007                                                             Page 12 of 16
Impact of Failed Bank Reviews to Treasury OIG’s FinCEN Oversight



Because of the unprecedented number of bank failures in the United States over
the last 3 years, my office has been forced to defer almost all discretionary audits
and delay others that were in process, including many designed to look at
Treasury’s efforts to prevent money laundering and combat terrorist financing. As
the Subcommittee is aware, the Federal Deposit Insurance Corporation
Improvement Act of 1991 requires that the Inspector General of the cognizant
federal banking agency review and report to that agency when an institution fails
and that failure results in a material loss to the Deposit Insurance Fund, where
materiality is defined as a loss of $25 million or more. A material loss review
determines the causes of the institution’s failure and assesses the supervision
exercised over the failed institution. Beginning with the failure of NetBank, FSB, in
mid-2007, 69 Treasury-regulated (OCC and OTS) financial institutions have failed
as of today. Of those, 52 have met the material loss threshold. My office has
completed and issued 17 such reviews and we have another 35 in progress.
Regrettably, looking forward, I believe my office will be busy conducting such
reviews for some time to come.



The current material loss threshold of $25 million was established nearly 20 years
ago. I believe that this threshold no longer serves as a reasonable measure of
materiality. Last July, with the extraordinary support of Chairman Moore and this
Subcommittee, the House passed H.R. 3330, Improved Oversight by Financial
Institutions General Act of 2009, to increase the material loss review threshold to
$200 million while prudently requiring some level of review of all bank failures.



I note that on April 15, 2010, S. 3217, Restoring American Financial Stability Act
of 2010, was introduced in the Senate. Section 987 of that legislation included a
provision to establish the material loss review threshold at (1) $100 million from
September 30, 2009, through December 31, 2010; (2) $75 million for 2011; and
(3) $50 million for 2012 and beyond.




OIG-CA-10-007                                                          Page 13 of 16
I continue to believe that an increase in the material loss review threshold is as
critical and appropriate today as when I testified on before this Subcommittee last
year. We simply are not learning that much new with each successive review we
complete and the requirement is precluding us from doing other important oversight
work.



I should note that in addition to the failed bank reviews, I have been able to
dedicate a small number of resources to oversee a couple of Treasury’s newest and
most costly programs. Specifically, Treasury’s more than $20 billion of non-IRS
funds authorized by the American Recovery and Reinvestment Act as well as
Treasury’s multi-billion investment in Fannie Mae and Freddie Mac that resulted
from the passage of the Housing and Economic Recovery Act of 2008. That Act
assigned Treasury a number of new authorities and responsibilities with respect to
the mortgage giants to include the purchase of securities and obligations of Fannie
Mae, Freddie Mac, and the Federal Home Loan Banks under certain conditions and
determinations. To that end, as of December 31, 2009, Treasury purchased $225
billion in Fannie and Freddie mortgage-back securities (MBSs) and $110.6 billion in
senior preferred stock so that the entities could maintain a positive net worth. Also,
while Treasury will not be purchasing anymore MBSs, the prior $400 billion cap on
further financial support to maintain a positive net worth through 2012 has been
lifted.



Additional Observations With Respect to FinCEN that the Congress Should
Consider Going Forward



My testimony has discussed a number of issues and concerns we have had with
combating money laundering and terrorist financing. I believe this is a very critical
mission for Treasury and I have serious concerns about my office’s current inability
to adequately oversee the activity because of our material loss review burden.
Moreover, some have suggested, in an effort to cut expenses, that some financial
institutions may have reduced their compliance staffs during the current financial
crisis. The regulators are also very focused on safety and soundness issues,
including unwinding failing banks or dealing with the after effects of banks that
have already failed. While all this is happening, Congress is simultaneously focused



OIG-CA-10-007                                                          Page 14 of 16
on regulatory reform. So, I applaud your Subcommittee for not overlooking the
importance of sound BSA administration.



I would also like to emphasize that any change in the current regulatory structure,
when finalized, must ensure that compliance with BSA (as well as compliance with
economic and trade sanctions administered by Treasury’s Office of Foreign Assets
Control) is not diminished. Furthermore, there are financial sectors that are still
fairly new to BSA and USA PATRIOT Act reporting requirements which need to be
monitored, including broker/dealers and the insurance industry. IRS, the examiner
of non-bank financial institutions, is already challenged with overseeing tens of
thousands of money services businesses. Additionally, there are still many old and
new challenges to Treasury’s efforts to prevent money laundering and combat
terrorist financing -- including those presented through financial instruments like
stored value cards, the continued profitability in dealing drugs as evidenced by the
increasingly violent drug war along the Mexican border, and the continuing efforts
of terrorists to pierce our defenses. In all this serves to reinforce the need for us to
remain vigilant in this critical area. We cannot let our guard down.



Regarding IRS’s maintenance of BSA data, FinCEN attempted but failed (at a cost
of over $15 million) to develop its own separate system several years ago. That
system, which was known as BSA Direct Retrieval and Sharing (BSA Direct), was
supposed to replace FinCEN’s reliance on IRS’s system. Though the system
development effort failed, FinCEN has not abandoned the idea, and is pursuing an
BSA Information Technology (IT) Modernization initiative.



Congress did express support for this new project in its consideration of FinCEN’s
fiscal year 2010 budget, but noted concerns given the failure of BSA Direct. It
should further be noted that in December 2009 Congress directed FinCEN to
submit semiannual reports to the House and Senate Appropriations Committees
summarizing the agency’s IT Modernization progress to include milestones planned
and achieved, progress on cost and schedule, management of contractor oversight,
strategies to involve stakeholders, and acquisition management efforts.
Furthermore, based on budget documents that we reviewed, it does not appear
that any additional appropriated funds were separately requested to support this
initiative for fiscal year 2011. Instead, the documents contained the following


OIG-CA-10-007                                                            Page 15 of 16
statement – “FinCEN will seek alternate funding from the Treasury Forfeiture Fund to
fully implement the planned IT Modernization.” Given the high risk nature of system
development efforts which oftentimes result in delays, increased costs, and in
some cases like BSA Direct, failure, we believe FinCEN’s BSA IT Modernization
effort requires close oversight going forward.



On a related matter, FinCEN has also been making an effort to upgrade its
research, analytical, and informational services capability, as required by the USA
PATRIOT Act. An audit we completed several years ago found, however, that
limited progress had been made. One impediment is that law enforcement
agencies, such as the Federal Bureau of Investigations, prefer to do their own data
analysis from a replica copy of the FinCEN database. That audit also found that
FinCEN’s database to track and report the number of investigative cases, subjects,
and strategic analytic products was not accurate or reliable. In this regard, FinCEN
partnered with IRS and OFAC to design, develop, and implement a new electronic
content management (ECM) system that is scheduled for implementation in
September 2011. Treasury received over $12 million in funding for ECM through
2009 and has requested another $5 million in 2011. I must tell you that we are
concerned about the ECM project as well. Large system development projects are
difficult to do well under that best of circumstances and the Department’s track
record in the area has not been good. Over time the ECM project has already
morphed from a narrowly focused support system for OFAC and FinCEN into a
much larger and costlier effort with a different objective and no definitive end in
sight. This is another critical area on which I would like to have my office focus,
but as I already discussed, with the mandated failed bank reviews and Recovery
Act work, my ability to assign resources for other oversight demands is very
limited.



That concludes my prepared statement. I will be happy to answer any questions
you may have. Thank you.




OIG-CA-10-007                                                          Page 16 of 16
